T7

APPENDIX
NO FURTHER APPENDIX NECESSARY.
ALL DOCUMENTS AVAILABLE ONLINE AND FROM COURT CLERKS.
DUE TO FINANCIAL INDIGENCE NO COPIES HAVE BEEN MADE OR WILL
BE MADE FOR THE COURTS. THE FEDERAL SUPREME COURT WILL BE
IN CHARGE OF ORDERING THEIR OWN COPIES AND READING ONLINE.

W"
V

7*

*

I

►

\

T l

r
*

)

ft

t
i

i

! T

, i

>
■ tT

►

t

<

y
,

*

»

¥

I

I

• i .

' j

¥

1

i +
f r

r I <l)

b

/

' ' i

%

1

* j

<

4

j ■

.k
r f

j
♦ ’

I , ,

i

/

r
t

;

t\

t

'i\

i
1

i .

i

FILE COPY

IN THE SUPREME COURT OF TEXAS

NO. 20-0793
JULES DYLAN STUER
v.
SUSAN DUESLER

§
§
§
§
§
§

Dallas County,
5th District.

January 8,2021
Petitioner's petition for review, filed herein in the above numbered and styled case,
having been duly considered, is ordered, and hereby is, denied.

★★★★★★★★★★
I, BLAKE A. HAWTHORNE, Clerk of the Supreme Court of Texas, do hereby certify
that the above is a true and correct copy of the orders of the Supreme Court of Texas in the case
numbered and styled as above, as the same appear of record in the minutes of said Court under
the date shown.
WITNESS my hand and seal of the Supreme Court of Texas, at the City of Austin, this
the 11 th day of February, 2021.

BWJK_* K.
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy Clerk

DISMISS and Opinion Filed August 17, 2020

In The

Court of Appeals
3?ift!| District of uTexas at Dallas
No. 05-19-00752-CV
JULES DYLAN STUER, Appellant
V.
SUSAN DUESLER, Appellee
On Appeal from the 298th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-18-07494
MEMORANDUM OPINION
Before Chief Justice Bums1, Justice Pedersen, III, and Justice Evans
Opinion by Justice Evans
Appellant Jules Dylan Stuer appeals the trial court’s order dismissing his case
against appellee Susan Duesler. Representing himself without an attorney, Stuer
filed an appellant’s brief. We notified him that his brief was deficient and instructed
him to file an amended brief to comply with the Texas Rules of Appellate Procedure.

i

The Honorable David L. Bridges, Justice, participated in the submission of this case, however, he did
not participate in the issuance of this opinion due to his death on July 25,2020. Chief Justice Robert Bums
has substituted in for Justice Bridges and has reviewed the briefs and the record before the Court.

Stuer’s amended brief is also deficient and fails to comply with the rules.
Accordingly, we dismiss the appeal.

BACKGROUND
A.

Family Court

On April 6, 2017, Duesler was appointed as the amicus attorney for a minor
child that was the subject of a custody dispute between Stuer and his wife in the
255th Family District in Dallas County. The family court held a trial regarding the
divorce and custody proceeding in January 2018 and signed a Final Decree of
Divorce on March 23, 2018.
B.

District Court

On June 8,2018, Stuer filed a lawsuit against Duesler in Dallas County Distict
Court alleging a claim for defamation and damages. Duesler sought immunity in
her answer pursuant to Texas Family Code section 107.009.2 Duesler then filed a
motion to dismiss pursuant to Texas Rule of Civil Procedure 91a. The district court
granted the motion to dismiss on October 5, 2018 (“October order”). On May 31,
2019, the district court heard Duesler’s motion for attorney’s fees related to her
motion to dismiss. The district court assessed attorney’s fees against Stuer by order

2

“A guardian ad litem, an attorney ad litem, a child custody evaluator, or an amicus attorney appointed
under this chapter is not liable for civil damages arising from an action taken, a recommendation made, or
an opinion given in the capacity of guardian ad litem, attorney ad litem, child custody evaluator, or amicus
attorney.” See TEX. FAMILY CODE § 107.009.

-2-

dating May 31, 2019 (“May order”). Stuer filed a notice of appeal regarding the
October order and the May Order.
C.

Court of Appeals

Stuer filed an appellant’s brief on October 17, 2019. By letter dated October
28, 2019, the Clerk of the Court sent Stuer a letter which stated as follows:
The appellant’s brief in the above referenced case does not satisfy the
requirements of Rule 38 of the Texas Rules of Appellate Procedure.
Specifically, the brief is deficient as follows:

X

The table of contents does not indicate the subject matter
of each issue or point, or group of issues or points. Tex. R.
App. P. 38.1(b).

X

It does not contain an index of authorities arranged
alphabetically and indicating the pages of the brief where
the authorities are cited. Tex. R. App. P. 38.1(c).

X

It does not contain a concise statement of the case, the
course of proceedings, and the trial court’s disposition of
the case supported by record references. Tex. R. App. P.
38.1(d).

X

It does not contain a concise statement of the facts
supported by record references. Tex. R. App. P. 38.1(g).

X

It does not contain a succinct, clear, and accurate statement
of the arguments made in the body of the brief. Tex. R.
App.P. 38.1(h).

X

The argument does not contain appropriate citations to
authorities. Tex. R. App. P. 38.1(i).

X

The argument does not contain appropriate citations to the
record. Tex. R. App. P. 38.1(i).
-3-

X

Text of brief is not double spaced. Tex. R. App. P. 9.4(d).

X

It does not contain a proper certificate of compliance. Tex.
R. App. P. 9.4(i)(3).

X

It does not contain a proper certificate of service. Tex. R.
App.P. 9.5(e)(2)(3).

X

Documents in appendix must be redacted to remove name
of child. Tex. R. App. P. 9.8(b).

X

Documents in appendix must be redacted to remove name
of parent. Tex. R. App. P. 9.8(b).

X

Documents contain sensitive data. Tex. R. App. P. 9.9 or
9.10.

The letter further informed Stuer that his failure to file an amended brief that
complied with the Texas Rules of Appellate Procedure within ten days could result
in dismissal of his appeal. Stuer filed an amended brief on November 7, 2019.
ANALYSIS
A.

Failure to Comply with Rule 38.1

In Texas, an individual who is a party to civil litigation has the right to
represent himself at trial and on appeal. Tex. R. Civ. P. 7. The right of self­
representation carries with it the responsibility to adhere to our rules of evidence and
procedure, including our appellate rules of procedure if the party chooses to
represent himself at the appellate level. See Bolling v. Farmers Branch Indep. Sch.
Dist., 315 S.W.3d 893, 895 (Tex. App, Dallas 2010, no pet.). Courts regularly
4

caution pro se litigants that they will not be treated differently than a party who is
represented by a licensed attorney. Id. To comply, an appellant must articulate the
issues we are asked to decide. Lee v. Abbott, No. 05-18-01185-CV, 2019 WL
1970521, at *1 (Tex. App.—Dallas May 3,2019, no pet.) (mem. op.). The brief fails
if we must speculate or guess about the appellant’s contentions. Id. We are not
responsible for identifying possible trial court error, searching the record for facts
that may be favorable to a party’s position, or doing legal research that might support
a party’s contention. Id. Were we to do so, even for a pro se litigant untrained in
law, we would be abandoning our role as judges and become an advocate for that
party. See Valadez v. Avitia, 238 S.W.3d 843, 845 (Tex. App.—El Paso 2007, no
pet.).
Our appellate rules have specific requirements for briefing. TexR. App. P. 38.
These rules require appellants to state concisely the complaint they may have,
provide understandable, succinct, and clear argument for why their complaint has
merit in fact and in law, and cite and apply law that is applicable to the complaint
being made along with record references that are appropriate. Tex R. App. P. 38.1(f),
(h), and (i). When deciding whether an appellant’s brief is deficient, we do not
adhere to any rigid rule about the form of a brief. See Bolling, 315 S.W.3d at 895.
Pro se litigants may not be versed in the form of briefing favored by seasoned
appellate practitioners. Id. We do, however, examine briefs for compliance with
prescribed briefing rules, including specifically, in this case, rule 38.1. Tex. R. App.
-5-

P. 38.1. After a close examination, if we can conclude a brief complies with the
Texas Rules of Appellate Procedure, we submit the appeal for review and decision
on the merits. Lee v. Abbott, 2019 WL 1970521, at *1. If we cannot, we may dismiss
the appeal as we are authorized to do. Tex. R. App. P. 42.3.
In this case, our notice to Stuer informed him that his brief failed to comply
with the Texas Rules of Appellate Procedure. Stuer’s amended brief, however, fails
to remedy these deficiencies. Although Stuer purports to present six issues for our
review, his brief fails to present applicable facts, argument, authorities and record
references for each purported issue.

To the contrary, Stuer’s brief is largely

incoherent and consists of a string of jumbled and chaotic references to laws,
constitutional rights, alleged crimes, wrongdoing and complaints which are
irrelevant to the underlying case. For example, Stuer’s amended brief references
violations of “Federal Victim’s Rights Law, »» a Federal Victim’s Rights Act,” and
due process law. Although Stuer mentions that the trial court “erred in granting]
Dismissal of the full Defamation case” in the issues presented to review, there is no
legal analysis of this argument or any citation to relevant supporting authorities. The
amended brief also complains of action and wrongdoing by individuals who are not
defendants in the underlying action such as his ex-wife’s attorney in the divorce
proceeding. Further, the amended brief is completely devoid of record references.
See Hernandez v. Dallas Indep. Sch. Dist., No. 05-17-00227-CV, 2018 WL
1835692, at *2 (Tex. App.—Dallas Apr. 19, 2018, no pet.) (mem. op.) (“Because
-6-

Hernandez’s brief is unsupported by appropriate citations to the record, he has
preserved nothing for our review.”). Because Stuer has failed to comply with the
briefing requirements of our appellate rules after having been given the opportunity
to do so, we dismiss appellant’s appeal. Tex. R. App. P. 42.3.
B.

Motion to Dismiss

Even if we had concluded that Stuer’s amended brief met the procedural
requirements, Stuer has failed to assert how the trial court erred in granting the
dismissal of the case.
Dismissal is appropriate under Rule 91a “if the allegations, taken as true,
together with inferences reasonably drawn from them, do not entitle the claimant to
the relief sought. . . [or] no reasonable person could believe the facts pleaded.” See
Tex. R. Civ. P. 91a. Appellate courts review a trial court’s award of a dismissal
under Rule 91a under a de novo standard of review. City ofDallas v. Sanchez, 494
S.W.3d 722, 724 (Tex. 2016).
In her motion to dismiss, Duesler argued that the trial court should dismiss
Stuer’s defamation case for two reasons:
(1) Plaintiffs defamation cause of action has no basis in fact as the
alleged defamatory statements of Ms. Duesler to Faith & Liberty’s
Place Family Center (and the transmission of a court’s Final Decree of
Divorce) were based on Plaintiffs own statements (See Plaintiffs own
admission in his First Amended Petition, Paragraph 10(c): “This was
based on conditional statements.”); and
(2) Plaintiff s defamation cause of action has no basis in law as Ms.
Duesler’s statements and transmission of the court’s Final Decree of
-7-

Divorce were made in her official capacity as an Amicus Attorney for
which she enjoys immunity.
The trial court did not specify the ground or grounds upon which it granted the
motion to dismiss. Accordingly, Stuer was required to challenge both grounds raised
by Duesler in the motion to dismiss. See Estate of Savana, 529 S.W.3d 587, 592
(Tex. App.—Houston [14th Dist.] 2017, no pet.) (“If an order granting a Rule
91a motion does not specify the grounds for dismissal, a party appealing the order
must challenge every ground upon which the trial court could have granted the
motion.”).
We first note that Stuer did not address Duesler’s first argument in either his
trial court pleadings or on appeal. Accordingly, he has failed to challenge all
grounds upon which the trial court could have granted the motion to dismiss and the
appeal fails for this reason. See Parkhurstv. Office ofAtt’y Gen. o/Tex.,481 S.W.3d
400, 402 (Tex. App.—Amarillo 2015, no pet.) (quoting Berger v. Flores, No. 0312-00415-CV, 2015 WL 3654555, at *4 (Tex. App.—Austin June 12, 2015, no pet.)
(mem. op.)) (“[I]it is appropriate to impose upon an appellant attacking a dismissal
under Rule 91a the same obligation as one attacking a summary judgment when the
trial court fails to mention a particular ground on which it relied. In each situation,
he must negate the validity of each ground upon which the trial court could have
relied. If he fails to address any particular ground, ‘we must uphold the [order] on
the unchallenged ground.’”).

-8-

In regard to the immunity argument, the Texas Family Code provides that “[a]
guardian ad litem, an attorney ad litem, a child custody evaluator, or an amicus
attorney appointed under this chapter is not liable for civil damages arising from an
action taken, a recommendation made, or an opinion given in the capacity of
guardian ad litem, attorney ad litem, child custody evaluator, or amicus attorney.”
Tex. Fam. Code § 107.009(a). The statute further provides that “[s]ubsection (a)
does not apply to an action taken, a recommendation made, or an opinion given: (1)
with conscious indifference or reckless indifference to the safety of another; (2) in
bad faith or with malice; or (3) that is grossly negligent or willfully wrongful.” Id.
at § 107.009(b). In this case, Stuer fails to assert which exception applies in this case
so that Duesler may be held liable. Further, Stuer failed to present any facts or
argument in support of his assertion that Duesler is not immune from liability based
upon her role as an amicus attorney in the divorce proceeding.
For all of these reasons, we conclude that had we looked at the merits of the
case, we would affirm the trial court’s order granting dismissal of the case.

-9-

CONCLUSION
As Stuer failed to comply with the briefing requirements of our appellate rules
after having been given an opportunity to do so, we dismiss appellant’s appeal.

/David Evans/
DAVID EVANS
JUSTICE
190752F.P05

-10-

Court of Appeals
Jfiifttf District of (Texas at Dallas
JUDGMENT
JULES DYLAN STUER, Appellant
No. 05-19-00752-CV

On Appeal from the 298th Judicial
District Court, Dallas County, Texas
Trial Court Cause No. DC-18-07494.
Opinion delivered by Justice Evans.
Chief Justice Bums and Justice
Pedersen, III participating.

V.

SUSAN DUESLER, Appellee

In accordance with this Court’s opinion of this date, the appeal is
DISMISSED.
It is ORDERED that appellee SUSAN DUESLER recover her costs of this
appeal from appellant JULES DYLAN STUER.

Judgment entered this 17th day of August 2020.

-11-

FILE COPY

Jftftlj Court of Appeal*
600 Commerce Street, Suite 200
Dallas, Texas 75202

June 25, 2019

RE:

Case No. 05-19-00752-CV

Style: Jules Dylan Stuer
v. Susan Duesler
The Court today filed appellant’s notice of appeal in the above referenced cause. The 5lh
Court of Appeals follows the Standards of Conduct adopted by Texas Supreme Court and Court of
Criminal Appeals order.
Trial Court Case No. DC-18-07494
THE HONORABLE EMILY G. TOBOLOWSKY
298TH DISTRICT COURT
GEORGE ALLEN SR. COURTS BLDG.
600 COMMERCE, BOX 822
DALLAS, TX 75202
* DELIVERED VIA E-MAIL *

Lisa Matz, Clerk

jf iftlj Court of appeals
600 Commerce Street, Suite 200
Dallas, Texas 75202

June 25, 2019
RE:

Case No. 05-19-00752-CV

Style: Jules Dylan Stuer
v. Susan Duesler
The Court today filed appellant’s notice of appeal in the above referenced cause. The 5,h
Court of Appeals follows the Standards of Conduct adopted by Texas Supreme Court and Court of
Criminal Appeals order.
Trial Court Case No. DC-18-07494
RYAN MCFARLTN
THE MCFARLIN FIRM, PLLC
PO BOX 224114
DALLAS, TX 75222-4114
* DELIVERED VIA E-MAIL *

Lisa Matz, Clerk

Ctnurt nf Appeals
iFiftlj district of ®exas at ©alias
MANDATE
TO THE 298TH JUDICIAL DISTRICT COURT OF DALLAS COUNTY,
GREETINGS:
Before the Court of Appeals for the Fifth District of Texas, on the 17th day of
August 2020, the cause on appeal to revise or reverse the judgment between
JULES DYLAN STUER, Appellant
No. 05-19-00752-CV

V.

SUSAN DUESLER, Appellee

On Appeal from the 298th Judicial
District Court, Dallas County, Texas
Trial Court Cause No. DC-18-07494.
Opinion delivered by Justice Evans.
Chief Justice Bums and Justice
Pedersen, III participating.

was determined; and this Court made its order in these words:
In accordance with this Court’s opinion of this date, the appeal is
DISMISSED.
It is ORDERED that appellee SUSAN DUESLER recover her costs of this
appeal from appellant JULES DYLAN STUER.
WHEREFORE, WE COMMAND YOU to observe the order of the Court
of Appeals for the Fifth District of Texas, in this behalf, and have it duly obeyed
and executed.

WITNESS the HON ROBERT D. BURNS, III, Chief Justice of the Court of
Appeals, with the Seal thereof affixed, at the City of Dallas, this 25th day of
February 2021.

Lisa Matz, Clerk

-2-

Case Numbers Sheet:
AG:

CGS-73496

OAG:

0013611355

CPS 2017-2018:

457-369-27

CPS 2019:

723-073-92

CPS 2020:

735-292-49, 740-387-24

255th Court Divorce:

DF-17-05507

255th Court Child Custody:

Defaulted

Recused.

191st Court Defamation:

DC-18-07493

298th Court Defamation:

DC-18-07494

Malpractice:

Defaulted

Recused.

DC-19-16060
DF-20-16005
Now in: 68th Court
162nd Court Finance:

DC-19-18091

5th Court of Appeals:

05-18-01220-CV Dismissed, 05-19-00752-CV

Supreme Court TX:

20-0793

Writ of Mandamus:

05-18-01346-CV

State Auditor's Office Control # for Crimes:

21-0927, 3883-01-262

Texas Commission on Judicial Conduct (SCJC) #:

21-0312, 21-0313

Ross and Mathews Legal Shield Membership Number:

10148624959
TX-6N8-43W

1

j

*

A

2021-301901 for Recipient Fraud IG area General Investigation
2021-301902 for Recipient Fraud was sent to IG area WIC Recipient.
TREC COMPLAINT: 180508
US Department of Justice Civil Rights Case: 31-041-JCN, 62291-LWN
Child Solicitation Case: 82-070527
Missing and Exploited Child: 817-12756
AG- CV Compensation Program: VC-211-10679
US Department of Treasury claim number for Whistleblowers program: 2021-004815, 2021-007250
FTC: 131232589
SEC: 16158-374-106

Sincerely,

Mr. Jules Dylan Stuer obo DBA
The Estate of Lily Ana Stuer
Criticaifiles00777@gmail.com
(469) 471-4200
1238 Dalhart Dr.,
Richardson, TX 75080
NCBE: N-10562079
LSAC: L-41102125
FBI Victim ID: 5735064

I

I

;

i

*

1

<

; :

(

<

■i

Case Brief Sheet:
555* Court Divorce:

|DF-17-05507i

(Stuer vs Stuer, 255th, Judge Cooks Now Recused, Defaulted Decree to Marital
Settlement Agreement / Property Division Agreement in 68th Malpractice
Court)
Facts: Multiple instances of Aggravated Perjury from misrepresentation of
Amicus, opposing lawyer Tadlock, and mother to protect their positions together
constructively, maternal child abuse (visitation and alienation now fully
documented for CPS, Department of Justice, and Department of Corrections in
2021), and Fraud in Court. Crimes overcome the truth in the 255* Court. The 255th
Court does NOT check for aggravated perjury, fraud, or maternal child abuse
patterns (parental alienation or parental visitation child abuse of children and as
such break their own Standing Order). The Court is heavily sexist and slanted
toward biased rulings and collecting child support for women. The Court has
authorized attorneys acting as Amicus to “strip children naked”, lie about it in
other Courts (As in Duesler Testimony 298th, Court), accept Title IV Child
Support, due to RICO violations, and or for some possible profit in fee or
solicitation money, and subjectively break their own Codes of Conduct, Standing
Orders, and Federal VRA laws whenever they’d like. These facts were shown
through various civil lawsuits, complaints, after a father didn’t receive his daughter
once home during divorce without signs of serious maternal abuse issues and was
illegally blamed in Decree, through subjective libel, for the issues. The 255th Court
is systematically victimizing adults and victim children in their rulings without
regard for law. The father was subsequently set up, defrauded, and blamed for
mother’s poor behavior on Decree, to simply solidify child support, without any
real evidence or criminal prosecution for crimes: “stalking” and “neglect”.
Procedure: The victimization and defrauding of Mr. Stuer and maternal abuse of
Miss. Lily Ana Stuer was not a secret as Mr. Stuer profusely documented it with
time stamped notes, representatives from federal agencies, video, and audio files.

i

I

;

*

•r

X

l

i

*

*s

Issue: If crimes are allowed to be performed constructively what is the Court really
running? Do Court officials get to biasedly discriminate against sex, simply to
support Title IV functions for lawyers to collect fees? Do Court officials get to
make up subjective lies and become complacent to crimes about subjects in order
to achieve political outcomes or sexist / biased based monetary income or other
malicious biased outcomes? Is a fraudulent document (with obvious subjective
libel and forgery) filed by the Court still enforceable?
Reasoning: Federal VRA rights prevent maternal child abuse and should have
prevented it in this case. Federal laws were conveniently overlooked by lawyers
and the Court to fit their own designated outcomes for the case. Title IV access is
only given to government agencies not individual attorneys but Judge Cooks ruled
against this access and found that she could direct monies to Court sponsored
attorneys. Fraud and perjury are constructive crimes that take officials complacent
to those crimes in order to achieve the nefarious outcomes and sexist directives in
order to procure political immunity and money for the Court. Through time if the
Judges are improper in their ruling they will ultimately try to cover it up by
enforcing contempt, framing individuals into criminals, and holding them in
contempt for lack of payments even if they are victims of crimes.
Rule: Federal laws against constructive crimes, RICO laws, and Federal VRA laws
are necessary to achieving outcomes of restoring Miss. Lily Ana Stuer with her
father along with reconstructed estate monies which have been defrauded.
Appointment of Ombudsman with FBI has been offered to Judge Hoffinan of the
68th Court in case: DC-19-16060 as of 2021. Federal Criminal Complaints have
been lodged with various agencies due to the treatment of victims. Fraud takes
time and money to find out and prosecute. Appointment of other financial
representatives was necessary as well due to time involved in procuring things
from well-known frauds through various agencies and places so that the numbers
work out in unison as to the goals for all involved. Appointment of representatives
for the Pro Se father, in the 68th Court, is necessary to curb the pain and provide
relief for victims.
Disposition: This case has not been disposed of. It has transformed into two
Defamation cases, one of which has made it to the USA Federal Supreme Court,
and a Malpractice case (where it is currently Defaulted four years after judgment,

»
n

f

i

•j
t

;

i

f

t

4

>
J

and a Child Custody case which was finally Defaulted due to lack of due process
time) by Recused Judge Kimberly Cooks, with the victim child in limbo now after
being damaged with maternal child abuser, child support still asking for payments
after four years of duty to them, and abusive mother still on the run. This case is in
absolute shambles due to the criminals now involved and formed against Federal
Contractor Mr. Stuer who has forced criminals to accept responsibility for their
own actions against him as a victim and his victim child.
Dissent: Maternal abuser Stephanie abused the child throughout the divorcing
procedures, was guilty of multiple counts of aggravated perjury, fraud
(constructive/ conspiracy to defraud, Medicaid fraud, and child support fraud), and
due to the poorly run court’s ability to detect such crimes the crimes have
continued to run rampant, within the family and friend circles of victims. The
accused maternal abuser was simply given blanket control over 100% of the estate,
without any oversight or question, no punishment or accountability, her actions
four years later have now stunted a victim child’s learning abilities, people are
questioning whether the victim child has had her nose broken by the mother or
other maternal abusers, actors, and crimes have continued constructively against
Pro Se father Mr. Stuer for years due to Court’s elongated due processing, lack of
care, and financial indigence brought to the victim father after being blamed
illegally for Stephanie’s maternal child abuse syndrome. Emboldened by her
success Stephanie seeks to enforce Child Support and even goes so far out of spite
to seek Medicaid as well in an obvious fraud (With her, her father, her mother, and
her husband’s current estates worth over $100 million USD) reported under 2021301901 and 2021-301902.
^55lh Court Child Custod^:

DF-20-16005

(Stuer vs. Reynolds, 255th, Judge Cooks Recused, Defaulted Judgment to
68th Malpractice Court)
Facts: After four years of providing for, aiding, and abetting crimes Judge Kim
Cooks was recused in this case due to issues with Enforcement of Contempt for
nonpayment of Title IV fees to a lawyer who stripped a child naked against Federal
VRA laws. Judge Cooks also has a serious issue with the Decree as it has not been
followed for access to the child by Stephanie due to ongoing maternal child abuse

t

t
V.

•j

?

t

I

J.

9

?

(

r
i

1
f

:

«<
v.»

I

\

«

crimes. Judge Kim Cooks also acted against Federal VRA laws by allowing for
crimes, subjective language, and maternal child abuse to go unreported in her
courtroom. Judge Kim Cooks chose to biasedly side with maternal criminal and not
to allow constituents to even answer the father back through email about
Emergency Issues with the now Exploited Missing and Solicited child. The Judge
still continued to try and collect Title IV Child Support for the Amicus illegally
and through illegal Contempt against State Constitutional laws to cover up her bad
decisions on the bench.
Procedure: This case got to where it stands by persistent work by a Pro Se father
who was incorrectly accused of neglect and stalking, on Decree, when the mother
had actually brought home the daughter, of the couple, every single time with signs
of maternal alienation child abuse and maternal visitation abuse, including a
bleeding rectum after staying with only adults, drug dealers, and being left by the
maternal abuser. Ultimately the procedure was followed against Federal law and as
the father uncovered the various crimes committed by the Court, Court officials,
and the mother it became obvious that “sexism”, crimes, and systematic child
abuse painted the 255th Court’s poor decisions regularly. Complaints have been
lodged to the USDOJ for review, recusal paperwork was given, and a Malpractice
case outside of the Court has been designated for a new agreement between the
parents as furthered criminal issues unfold maternally.
Issue: Is Federal VRA law allowed to be broken against a victim child and victim
father while perjury and fraud are present in a civil divorce Court? What does a Pro
Se father do about such extreme sexism, fraud, perjury, and maternal child abuse in
family court as an indigent victim then of certain crimes? Can a child be protected
through an Emergency Protective Order, Writ, along with new sibling(s),
reconstructed estate, and child support now due to the father? (After four years of
continued constructive crimes against the victims have shocked the Courts, with
two recusals (possibly a third in the 68th Court if Federal laws are not followed),
Affidavits of Prosecution against certain Judges have even made certain Judges
involved partial toward criminals in a bid to save their own positions on said
crimes. It is yet to be seen whether or not the Courts are involved enough in
checking for crimes in the Civil Courts to make a difference. The indifference and
disregard for criminal issues in Civil Court has shocked a Pro Se victim father and
victim daughter as they seek relief from crime and civil disobedience.

r
i

>

i

;

!
1

f

f

r

*

l

i

i-

#

Reasoning; Federal VRA Laws, Standing Orders, Lawyers Ethics and Conduct
Rule: Standing Orders, Federal VRA laws, Recusal of Judges, Penal Codes
Disposition: After ruling that a child can be given back to a victim father as a
victim with estate reconstruction, and child support for said father, a Bill of
Review and Decree will be issued to finalize the cases. The father will now need to
expunge his record to clear up issues with credit, criminal issues, and overall
dignity. Federal Supreme Court writs and funds to prevent such child abuse,
perjury, and fraud from happening in the future are being sought.
Dissent: Dissent from Recused Judge Tobolowsky, Cooks, other Judges, lawyers,
and actors now being sought for Federal crimes due to being lazily duped into
constructive fraud and filing false records with the Courts by criminals against a
victim father and his victim child. This is in turn curtailed by Lis Pendes Orders
and Assigning power to the 68th Court and the Federal Supreme Court to handle
these types of issues which arise in Dallas County, throughout the State, and
throughout the nation as no one should ever have to live with false accusations in a
Decree or Writ based on constructive crimes.
|l91st Court Defamation:

[DC-18-07493

(Stuer vs. Tadlock, 191st, severe latency in due process ultimately siding with
Defendant after No Discovery was made without any further study or proof)
Facts: Judge Slaughter heard the case and made a decision in the case without
adequate Discovery or Interrogatory in the case after promising to get back with
Pro Se litigant with information the following Monday after the oral arguments
were made. She did not get back to him but in the form of Dismissal letter over a
month later while the Pro Se litigant was out of town so he could not appeal the
decision.
Procedure: This case shows a consistent lack of care from Judges toward Pro Se
litigants, no reporting of maternal child abuse or crimes by the Judge even after
asked, no discovery, and ultimately no movement from the Court AT ALL against
a constructive criminal who misrepresented his case and client simply for a quick
win.

■!

t

(

■

>

i.

1

J

i

*

t

Issue; Is a BAR Certified Attorney allowed to simply disregard Federal Laws,
Civil Standing Orders, and Lawyers Code of Ethics, and defame a father
subjectively on Writ of Attachment to a victim child? Then defame the father
further on a Decree by forcing time constraints on him coercively by use of
constructive crimes? Yes; at least for a time. Perjury and Fraud have been effective
and efficient weapons for an abusive fraudulent mother, her legal team, the
Amicus, and the 255th Court who continue to shield their lies, peijury, defamation,
and blame others for their own neglect preposterously.
Reasoning: With active perjury, fraud, crimes against the victim child, defamation
about victim and hero Mr. Stuer taking it’s toll, no Discovery, the 191st Court
missed their chance to help victims and in so doing prolonged the pain, agony,
suffering, and torture. It gives a glimpse into victims’ issues with reparations,
estate reconstruction, and compensation once crimes have been committed and also
a possible reason why most victims never receive any form of compensation. Lack
of care by the Courts and dismissing issues of utmost importance to victims shows
a serious problem and inconsistency with Federal VRA laws.
Rule: Rules must, in the future, require Court reporting of ALL crimes, even if
alleged, in order to better serve the commonwealth and keep track of victims and
criminals. Federal VRA laws require:
The right to full and timely restitution as provided in law.
The right to proceedings free from unreasonable delay.
The right to be treated with fairness and with respect for the victim's dignity and
privacy.
Disposition: Tadlock then afforded himself all awards, removed himself from the
family case, and is now fully unavailable for any service, documents, or
questioning even four years after the maternal child abuse has continued by
disallowing father access every two weeks to his child as Court ordered. The
maternal child abuse has continued in various forms of constructive crimes
involving mutual family members, friends, leaving the father without any voice
effectively defrauded and led to be declared vexatious by recused Judges. The
visitation being proof of maternal child abuse enough, now that vexatious

t

s
i

*

l

%

4

K

r*

f

1

•I'

**4

declaration has been made, and Mr. Tadlock freed from the case after writing in all
orders to his own unfair advantage, with libel and missing numbers inherent, has
left the Pro Se victim father and his victim daughter without any viable legal
remedy other than the 68th Malpractice Court and the Federal Supreme Court.
Dissent: Dissent by Judge Slaughter due to saying on record that she would: “Get
back to [you] Monday” and without further ado dismissed the case after the period
of time ungiven. Judge Slaughter also refused on record to “get involved” with
any type of required documentation in regards to certain criminal/civil cases. Judge
Slaughter gave blanket immunity to Attorney Gerald Tadlock whilst Mr. Tadlock
had committed the crime of perjury, in ink, in her courtroom Federal victim status
was not respected nor accounted for in the 191st Court and a criminal was allowed
to offset due process yet again exponentializing pain to victims.
!298j!iL^ourtiDelamation:

PGll8l07i94

(Stuer vs. Duesler, 298th, Judge Tobolowsky: Recused.)
Facts: No Discovery or Interrogatory was given again but some oral arguments
were made in Court. Duesler was viewed as perjuring herself in Court by saying
that she “did Not strip Lily Ana Stuer naked”, but then about face said she “did”,
on record during the same testimony in an obvious aggravated perjury, further
rambling on to admit that “she didn’t see any signs of child abuse” in the case
where she was specifically summoned for the reason of maternal child abuse and
the father gave her and CPS a 200+ file USB outlining such maternal child abuse.
If she “didn’t see any signs of child abuse”, like she said, why would she then strip
the child naked as solicited by the abusive mother? Her attorney Ryan Mcfarlin
was also seen perjuring himself as saying: “the case is over in appeals” to the
Judge when the case had not reached an opinion yet from Appeals. He then went
on to appeals and said the “Defamation case was over” when it was not yet over
thus confusing the Courts as to the direction they should take to improperly
influence them collectively. Judge Tobolowsky ultimately refused to report child
abuse, various other crimes, and Dismissed the case making full awards to Duesler
and McFarlin. The Pro Se father then uncovered RICO issues with political
corruption as Mr. McFarlin is directly related to an Associate Judge on a similar
Court. Judge Tobolowsky was also found to have Sorority ties with Susan Duesler.

*

i

She was later Recused from the bench in the case after making judgments that the
Pro Se father was simply somehow ‘Vexatious”, in a Malpractice Case, which was
then defaulted to the 68th Court, again without Discovery / Interrogatory.
Procedure: Aggravated Perjury of the Defense proved to work again in the 298th
Civil Court for Duesler. Subjective slander and libel were used in addition to
Perjury to confuse the Judges collectively, improperly influencing them
fraudulently, into non-action, and dismissal.
Issue: Can litigants openly use Aggravated Perjury to win cases without any
Discovery / Interrogatory? Can Judges fail to report child abuse, fail to protect a
child, and fail to comply with Federal VRA laws, and various other crimes in their
Court rooms and show this type of biased favoritism?
Reasoning: It was later found, after the Judge had called Mr. McFarlin to her
bench that the Judge obviously knew him, and Susan Duesler personally through
an Associate Judge and various other associations. Duesler later hired other
attorneys abruptly to hide the association after Mr. Stuer found out about the
conflict of interest and possible RICO violation from a sororal order of ties.
Rule: Attorney Ethics and Conduct Codes show that any crimes, subjective
slander, or improper conduct is strictly prohibited.
Disposition: Duesler then used this case to further her agenda to exploit the victim
child and her victim father through Contempt to “Pay her or Go to Jail” and
furthered her agenda to smear Mr. Stuer’s good name by declaring him vexatious
in the 298th Court during Malpractice suit which was subsequently Defaulted. All
the while Mr. Stuer was without his rightful Vi of his estate and victim daughter
and had every right to be upset about being continually victimized and alienated.
Dissent: The issues with this case then caused retaliation by Susan Duesler to
“finish [Mr. Stuer] oft” as she claimed to Mr. Fordham a Court appointed Attorney
who protected Mr. Stuer from 10 years in Jail, for Contempt in the 255th Court, for
being financially unable to pay Child Support, due to then ongoing crimes, being a
victim of fraud, and being declared financially indigent.

;

4

fi

<
f

[68th Court Malpractice:

1DC-19-1606Q

(State of TX, LAAAS, Stuer vs. Duesler, Etl, 68th Court, Phase 5.)
Facts: This is a Court which handles Malpractice Attorneys. The Judge never
answered the proposed Order to Clarify, in the 30 day request for information and
therefore has broken Federal VRA laws as well as other Courts. Mr. Stuer is still
being harassed to pay for illegal conduct from attorneys, still in an unspoken
Contempt in the 255th Court for being financially indigent, not succumbing to now
Court sponsored extortion, constructive maternal crimes, and he is still listed
online as a ‘Vexatious litigant” even after a full recusal of Judge Tobolowsky who
made such declaration illegally and with more subjective libel, this time, in the
form of accusations about forgery (which serves as yet another fraudulent
document filed by the Court). The report from Susan Duesler about maternal child
abuse was a grand total of two pages. The vexatious litigant Motion due to fear of
crimes committed by herself, was upwards of 500 pages (which show her concern
not to protect the victim child but to cover up her own crimes), including various
emails, and facebook posts with no real value at all except to show that Mr. Stuer
was being stalked by the attorney and her cohorts, really cares for his daughter, is
not negligent, and that he was upset about the treatment of himself and daughter as
victims of various crimes (which is no secret). Mr. Stuer reserves the right to be
disgusted and upset by his and his daughter’s treatment as victims of ongoing
crimes which have now damaged his daughter for most of her life. No further
negotiations or solutions have been given by Duesler or Tadlock as they continue
their constructive fraud for more and more monies now assigned illegally. Other
Judges are now being sought for aiding and abetting criminals and for various
crimes associated with Failure to Report Child Abuse, Failure to Comply with
Federal law, and Failure to Protect a Victim Child.
Procedure: The Case is wrought with Level 5 Security, Third Party Funding, FBI
Ombudsman/woman and Federal Codes Statutes if allowed by the Judge, Citations,
and Laws in Regards to Federal Victims of Crimes and Exploitation. In regards to
law it is required that certain secrecy and permission regarding time are given to
unlace certain deliverables for time, ex parte, and through time to best effect the
victim children. These deliverables have not yet been respected to the
knowledge of the Plaintiff. Mr. Stuer nor his daughter have been treated with

>

A

►

f

)

;
s

i

;
*

i
".i

u.

*

i

'

ft
fairness or dignity as victims in this 68th Court to their knowledge. The Court has
either done nothing or is doing something without any reasonable correspondence
to Mr. Stuer about his daughter. Therefore, leaving Mr. Stuer to continually email
the Court, the AG, and other organizations for help which to his knowledge has
also been unforthcoming. Without action from the 68th Court the Federal
Supreme Court is the last and only venue for relief. Mr. Stuer is requesting
that his daughter and monies awarded be returned by June 15th, 2021 or
another recusal will be issued for Judge Hoffman. Without relief in this case
two victims will continually be victimized, without movement by the Federal
Supreme Court, due to crimes and unscrupulous work by lawyers and Judges who
simply just do not care enough about others, are too lazy to research, order
transcripts, and find out, where Perjury and Fraud were performed by accused
maternal abuser, and are too complacent with crimes for their place. The child has
remained in danger due to the maternal abuse for four years, has been
damaged by the maternal child abuse, and now due to monies being sought
(with money hungry and abusive mother) is in eminent danger for further
injury. Miss. Lily Ana Stuer is a caricature of her former self due to being
exhausted by the maternal child abuse and child abuse by various maternal
actors who have solicited the child. Emergency issues should be dealt with
immediately.
Issue: Ultimately this case has shown how far behind Courtrooms in Texas are in
dealing with Child Abuse, Fraud, and Perjury efficiently and effectively in a civil
setting. The main issue facing the 68th Court is: How is time conducted until a safe
return of the Missing Exploited Solicited and Victim Child? How does the 68th
Court manage, appoint, and unlayer the Emergency Enforcement Order, Writ of
Attachment for multiple children (in a family unit), now that maternal criminal has
complicated the situation with another child, yet another husband, has over 20
trusts, properties, accounts? How is the financial aspect of appointments, legal
actions, and the settlement to return reconstructed estate awards alongside of the
child procured without substantial risk to the child (from a money hungry and
maternally abusive mother along with various other criminal actors), as a Pro Se
Attorney? The primary issue is that the 68th Court Judge Hoffman may enter into
an all too common issue of lack of care and simply Dismiss the case, or not follow
up with appointments and paperwork, due to laziness, which may have been the

>

*

1

(

I

ultimate excuse for other Courts as well to not protect victims. Laziness and
Complacency with crimes is an issue that needs to be dealt with on a Federal level
for VRA cases, by the Federal Supreme Court, in order to deal with the issues at
hand or the victims become victimized on a greater scale and justice is not served.
Furthermore, Judges and Attorneys begin to aid and abet in the crimes
constructively as is the case with Cooks, Duesler, and Tadlock to save their own
skin. A simple appointment by a Pro Se litigant should be enough to gain access to
Federal VRA ombudsman/woman and processes. Pro Se litigants are by no means
required to have no emotion toward torturous treatment of their only child and
100% knowledge of Court processes. Pro Se victims should be afforded certain
rights which others are not. Courts who have no incentive to look into the truth of
cases which involve regular child abuse allow abusers frauds and criminals like
Stephanie to effectively get away with prolonged maternal child abuse (4 years),
fraud, and perjury, amongst other crimes which indeed mar not only the victim
child but a whole family of people. If the Judges don’t care about protecting and
redeeming victims in some form of due process then who will?
Reasoning: Various lawyers and Judges are very poorly studied at Federal law in
regards to safety for children and are improperly prepared to deal with high level
criminal activity: Perjury (aggravated) and Fraud. The intent of this case is to
provide the Pro Se father with further study into law, legal processes, and to
educate and allow for negotiations by appointed authors to prevail at the end of
June 15th, 2021. Ex Parte is a necessary option for victims of Federal crimes. (It
was actively used on the victim father, through the 255th Court, for Writ and
Decree, without any crimes being committed by him, due to subjective defamation,
and as such ex parte Orders should be afforded for him and his victim daughter due
to that problem the 255th Court created for itself in Default.) Judges and Lawyers
should also be required to go to jail for such egregious violations of the law and
laziness with at least three charges: Failure to Protect a Child, Failure to Report
Child Abuse, and Failure to Comply with Federal VRA laws. If they were
punished or even simply educated these types of issues wouldn’t take 2/3s of a
child’s young life to remedy and they would be less prone to lazy behavior, lack of
research, lack of Federal Compliance, and lack of study.
Rule: Federal Victim’s Rights Act Rules, IRS Whistleblower Rules, TX AG Civil
Rules

*

i

c

r

t

t'

#

Disposition: This case ends in criminal court with the maternal abuser and other
actors (possibly even Judges and attorneys) being sentenced to their crimes, by FBI
ombudsman and State of Texas Prosecutors, after settlement monies are paid in full
to the State of Texas, IRS, FBI, other enforcement agencies and departments, Mr.
Jules Dylan Stuer, and The Estate of Lily Ana Stuer through the 68th Court or the
Federal Supreme Court.
Dissent: Dissent will come in the form of civil and criminal litigation throughout
this case and others due to civil devices already appended before Recusal of such
Judges and lawyers guilty of crimes, defamation, and improper malpractice
conduct. Two things that must be quelled, removed, and struck from the record, by
the 68th Court, or the Federal Supreme Court, during this case by gaining control
over other Courts in Default,'are: 1) Contempt charges to the victim father for
being defrauded, losing his “family businesses, assets, etc” in full, and being
forced into severe bouts of poverty as a financially indigent victim. 2) Vexatious
designation which ruins every facet of litigation, education, and life due to victim
predator criminals, attorneys, and Judges. With contempt and vexatious charges in
place it gives the maternal abuser, bad lawyers, bad judges, more excuses to evade
the law and violate the victims.
162nd Court Finance:

DC-19-180911

(Stuer vs. LVNV etc, 162nd Court)
Facts: There were no facts given by the LVNV conglomerate. They never
provided adequate Discovery / Interrogatory and were therefore dismissed by the
Court. Mr. Stuer could not find where the numbers were mixed up during the
Dismissal but after a certain number of days Mr. Stuer did request that the Court
Dismiss his case and that no balance should be leveraged. In so doing he set
precedence in Court and was awarded with the ability to not be served, by Officer
of the law, due to harassment. Victims may now request with Federal VRA
protection to only be contacted by certified mail while they are victims of fraud,
crimes, etc. The Case was ultimately Dismissed with various time quotients being
set with the 162nd Court in regards to removing any balances due. Balance was
erased by litigation’s design (after 90 day stipulations).
Procedure: Form is posted next to mailbox within 2 Feet.

%

.■

.

:
*
\

. v

'

*

I

b

4

m
Issue: Whether a giant conglomerate holdings company could pursue a victim of
crimes for monetary award and leans while going through the effects of crimes.
Might there be a pendency in boisterous and cash laden requests and leans while
victimized? Yes, the Court, to victim Mr. Stuer’s knowledge, then agreed and
Dismissed the case along with all claims for debt leaving a 0 balance.
Reasoning: Victims who are Financially Indigent and Indentured Apprentices are
^Federally Protected Classes who are afforded VRA rights at any time after crimes
were committed and victimization was progressing.*
Rule: Various Federal laws from VRA, including but not limited to Constitutional
laws, Civil laws, and what constitutes “rights to be happy”. Thus victims may be
free from harassment about finances after being defrauded and any further planned
victimization based on finances may be curtailed for a time if legal and
appropriate.
Disposition: It will dispose of with Credit Agencies due to victim status. Contested
balances are still an ongoing issue to the heartlessness of corporate deviance.
Dissent: Corporate Dissent has occurred in this case due to issues arising from
amount of debt at time of closure. They have tried to trick the credit agencies at
this point into collections with other collection agencies and attorneys. Mr. Stuer
has recently put a freeze on his and Lily’s credit account as it has also been
ravaged by illegally procured Title IV child support. Stuer also opened up an FTC
and SEC case in regards to “marriage terrorist” criminals, attorneys, and judges.
Courtof Appeals:

05-18-01220-CV Dismissed, 05-19-00752-CV Dismissed

Highlights:
• Susan Duesler and other attorneys perjuring themselves in Court, during the
pendency, about whether the case in the 191st and 298th were done or not to
improperly influence Judges and further deceive the Courts.
• The Court of Appeals Judging on old copies not Amended Versions which
were sent in due time. Not enough research into case, not enough Federal
Protection, or rights granted for victims of crimes by 5th Appeals Judges.
• No effort made at all to read the Amended version of Petition sent.

4

*

K

I

i

ri
•4

;

i

*

m
• Dismissed case without any forethought in an absolutely abhorrent display
of ignorance in Federal Victims Rights laws, penal codes, and abilities to
link cases, problems, or complaints at all causing further victimization.
• Further services could have been chances to report to Federal agencies for
Compensation funds or due to educational programs which were funded but
unforthcoming in this case. Federal Victims’ Rights Act is something that
encompasses all civil and criminal issues intertwined in this case. *Once
crimes have been committed in Civil Court it is against the law to fail to
report crimes, protect a victim child from crimes, and to follow Federal acts
even for Appeals Court and Supreme Court Judges.*
(Stuer vs Duesler, 5th COA, Judges reluctant to act on behalf of victims
ultimately aiding, abetting, and contributing to further crimes/victimization.)
Facts: Duesler performed criminal acts (from which there is no immunity) to a
victim child by stripping her naked, lied about it in the 298th Court to the victim
child’s victim father, claimed “she didn’t see any child abuse”, when that was what
she was appointed to do, lost access to Lily, who ultimately became Missing and
Exploited (along with all of her and her father’s estate money), and promptly went
on to forcibly collect child support from a father out of malice and sexism trying to
“finish off’ the victim father in jail or a mental institution the whole time. As the
Court records and CPS records show the victim child was not returned home once
to the Pro Se father without severe signs of maternal abuse which makes Duesler’s
actions out of bad faith and malice. The woman the Amicus Duesler subjectively
defamed Mr. Stuer for, defrauded him socially and financially, is now wanted for
over 12 crimes, including Exploitation of Child for Child Support. Ms. Susan
Duesler and other attorneys Perjuring themselves in Court various times in various
Court rooms tried to let excessive time, Malpractice, and Defamation ruin the
victims. The 5th Court of Appeals, dizzied by constant litigation by an obviously
not negligent but persistent Pro Se father, faltered on which Judges were in charge
and contributing to the case, and one Judged on old copies of a Petition not
Amended Versions which were sent. Not enough research into case was given, no
criminal research into testimony at all, and ultimately no Federal Protection or
rights were granted for victims of crimes. The Judges thus contributed to various

V

*

\

\
\
1

i

i

i

t.

t

;
t

•s
A.-

:

f

